      OFFICE OF THE INSPECTOR GENERAL
      CORPORATION FOR NATIONAL AND
            COMMUNITY SERVICE




                  Financial Reporting
 An Analysis of Alternatives and Recommendations


           OIG Audit Report Number 01-33
                   June 7,200 1




                     Prepared by:

                    KPMG LLP
                2001 M Street, N.W.
               Washington, D.C. 20036

 Under Corporation for National and Community Service
             Office of the Inspector General
            Purchase Order # 200008020002
General Services Administration Contract # GS-23F-8 127H
                           Office of Inspector General                             CORPORATION
                 Corporation for National and Community Service                    FOR NATIONAL

                                Financial Reporting                                 SERVICE
                 An Analysis of Alternatives and Recommendation
                           OIG Report Number 01-33

In 1999, the American Institute of Certified Public Accountants (AICPA) Council
designated the Federal Accounting Standards Advisory Board (FASAB) as the
accounting standards setting body for Federal government entities. The AICPA requires
members to comply with accounting principles promulgated by a body designated by the
AICPA to establish such principles. The amendment recognized accounting standards
published by the FASAB as generally accepted accounting principles (GAAP) for
Federal financial reporting entities. The amendment gave the FASAB exclusive
jurisdiction to establish GAAP for Federal entities.

As a result of the AICPA's decision, an issue arose as to the accounting standards to be
used by Federal government corporations which had, historically, followed private sector
standards promulgated by the private sector standard setter - the Financial Accounting
Standards Board (FASB). The FASAB issued an initial decision to allow Federal
entities, including government corporations, to continue reporting under the FASB
standards if the entities had previously issued such financial statements.

CNS OIG engaged KPMG, LLP to provide a study on the Corporation's financial
reporting and basis of accounting, including an analysis of alternatives and
recommendations. KPMG reviewed the Corporation's legislation (authorizing and
appropriations), budget, and current financial statements, and obtained an understanding
of the Corporation's structure and operations. KPMG also researched FASB and FASAB
standards and OMB's reporting requirements.

The KPMG study concludes that the Corporation is in substance a Federal agency by
virtue of its funding source, appropriated funds, and that the private sector standards do
not provide for the reporting of essential budgetary information or program performance
data as required by the FASAB standards. The study recommends that the Corporation
consider adopting the Federal reporting model. CNS 01G reviewed the study, and its
recommendation with which we concur, and the Corporation's response.

In its response, the Corporation agreed that the Federal reporting model provided useful
information on the Corporation's operations. The Corporation intends to continue
enhancing its financial statements as deemed relevant, cost effective and useful to the
financial statement reader. In addition, the Corporation will consider voluntary adoption
of FASAB standards in future years.




                                                                               Inspector General
                                                                               1201 New York Avenue, NW
                                                                               Washington, DC 20525
             2001 M Street, N.W.
             Washington, D.C. 20036




Inspector General
Corporation for National and Community Service

We have performed a study of the Corporation for National and Community Service's basis
of financial reporting, the results of which are discussed in the accompanying report
entitled: Financial Reporting - An Analysis of Alternatives and Recommendations.

We conducted this study at your request to assist the Corporation in assessing whether its
current financial reporting practices provide the information necessary for program
management and evaluation.

We concluded that the Corporation is in substance a Federal agency by virtue of its funding
source, appropriated funds. The business-reporting model followed by the Corporation
does not provide the information necessary to fully satisfy Federal financial reporting
objectives and the objectives of the CFOs Act of 1990. Accordingly, we recommended
that the Corporation consider adopting the Federal reporting model.




June 19,2001




1111           KPMG LLP KPMG LLP a U S lhmlted a b t y partnerihlp
               a member of KPMG Internatonal. a Swiss a s s o c a t o n
                                                                          IS
                       Corporation for National and Community Service
                                     Financial Reporting
                       An Analysis of Alternatives and Recommendation

                                               Table of Contents


OBJECTIVE AND CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1.

METHODOLOGY              .................................................... 1
BACKGROUND             ..................................................... 2
HISTORY OF CNS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
FINANCIAL REPORTING CONCEPTS AND OBJECTIVES . . . . . . . . . . . . . . . . . . .5

OBJECTIVES OF THE CHIEF FINANCIAL OFFICERS ACT OF 1990 . . . . . . . . . . .6

SUMMARY ANALYSIS AND RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . 7
CONCLUSION           .......................................................                                                  8

APPENDIX A .DESCRIPTION OF RELEVANT CONCEPTS STATEMENTS

    AND NON-FEDERAL FINANCIAL REPORTING REQUIREMENTS . . . . . . A- 1

APPENDIX B .CORPORATION RESPONSES . . . . . . . . . . . . . . . . . . . . . . . . . .B-1
              Corporation for National and Community Service
                                Financial Reporting
              An Analysis of Alternatives and Recommendation



Objective and Conclusion:
KPMG was engaged by the Office of Inspector General to perform a study of the
Corporation for National and Community Service's basis of financial reporting. The
objective of this study is to provide the Corporation with information about the financial
reporting concepts and standards for communicating information necessary for program
management and evaluation of Federal entities and to assist the Corporation in assessing
whether its current reporting practices provide such information.

KPMG concluded that the Corporation is in substance a Federal agency by virtue of its
funding source, appropriated funds. The business-reporting model followed by the
Corporation does not provide the information necessary to fully satisfy Federal financial
reporting objectives and the objectives of the CFOs Act of 1990. In response, the
Corporation reported some of the information provided for by Federal concepts
statements and associated accounting standards in the "About the Corporation" section of
its Annual Report to Congress.

KPMG recommends that the Corporation consider adopting the Federal reporting model.
The Corporation has indicated that it would consider disclosing in the Notes to the
Financial Statements the relevant information provided for by the Federal accounting
concepts and standards to achieve Federal financial reporting objectives. During its
deliberations of this analysis and the resulting recommendations, the Corporation should
consider the needs of financial statement users for information relevant to financing,
managing, and evaluating Federal programs.

Methodology:
To accomplish the foregoing objective, KPMG:

        Reviewed CNS's budget for Fiscal Year 2000 ancd its Fisca.1 Year 2000 financial
        statements;

        Obtained an understanding of CNS's structure, programs, and operations; and

        Researched Federal Accounting Standards Advisory Board (FASAB) and
        Financial Accounting Standards Board (FASB) financial reporting concepts and
        standards and considered the reporting objectives of the Chief Financial Officers
        Act of 1990 and the requirements of the Office of Management and Budget.
Background:
The Government Corporation Control Act provides that Government Corporations must
prepare financial statements in accordance with generally accepted accounting principles.
Until recently, there were no such principles issued specifically for Federal entities,
including Government Corporations. Accordingly, Government Corporations adopted
the generally accepted accounting principles established by the FASB for non-
government entities. In 1993, the FASB issued Statement of Financial Accounting
Standard (SFAS) Number 117, which established financial reporting requirements for
not-for-profit organizations. Since some Government Corporations possess many if not
all of the characteristics of a not-for-profit organization (See SFAS Number 116,
Appendix D), those possessing these characteristics should have been complying with the
provisions of SFAS 117 for fiscal years beginning after December 15, 1994, SFAS 117's
effective date.

In 1999, the American Institute of Certified Public Accountants recognized the FASAB
as the authoritative accounting standards setting body for Federal entities, which include
Government Corporations. Standards issued by FASAB are now recognized as generally
accepted accounting principles for Federal entities. In response to inquiries about
whether Government Corporations should adopt FASAB standards, the FASAB provided
that such organizations could continue to follow FASB standards until the FASAB
studied the matter.

We have been asked to study and report on whether CNS should continue to follow
private sector standards issued by the FASB or adopt FASAB standards.

History of CNS
In 1990, Congress passed the National and Community Service Act. This legislation
created both a private, nonprofit organization -- the Points of Light Foundation, and a
new independent federal agency, the Commission on National and Community Service.
Through grants and national coordination, the Commission supported four streams of
service: service-learning programs for school-aged youth, higher-education service
programs, youth corps, and national service demonstration models. In 1993, Congress
created the National Civilian Community Corps (NCCC) through passage of the National
and Community Service Trust Act. The legislation created the Corporation for National
and Community Service to administer AmeriCorps, Learn and Serve America, and the
other national service programs.

The CNS merged the work and staff of two predecessor agencies, ACTION and the
Commission on National and Community Service. For two decades, ACTION had
administered VISTA and the three programs which make up the Senior Corps - the
Retired and Senior Volunteer Program (RSVP), Senior Companions and Foster
Grandparents.
Since 1996, the Congress has increased the Corporation's annual appropriation from $600
million to over $73 1.6 million for fiscal year 2000. Table I summarizes the Corporations
Year 2000 enacted budget. Table I1 summaries the funding sources for Corporation
Program Offices.

                                                            Table I

                                       CNS Major Budget Categories and Funding Sources

                                                 Source: Year 2000 enacted budget
                                                                                                          -



                                          National and Community Service Act (NCSA)

National Service Trust                                                                 $   69,000,000

AmeriCorps Grants                                                                          228,395,000

Innovation, Assistance, and Other Activities                                                33,500,000

Evaluation                                                                                   5,000,000

National Civilian Community Corps                                                           17,892,000

Learn and Serve America: K-12and Higher Ed                                                  43,000,000

Program Administration

State Commissions

Points of Light Foundation

                                               Domestic Volunteer Service Act (DVSA)

Volunteers in Service to America (VISTA)                                                    80,574,000

                                                   National Senior Service Corps

Retired and Senior Volunteer Program                                                        46,117,000

Foster Grandparent Program                                                                  95,988,000

Senior Companion Program                                                                    39,219,000

Senior Demonstration Program

                                                              Other

Office of the Inspector General                                                              4,985,000

Program Administration                                                                      3 1,129,000

Total (Funded by General Fund Appropriations)                                            $731.659.000
                                                        Table I1

                                   Funding Sources of Program Offices

                                                                     Program Offices
Budeet Cateeories/Funding                                                                   Planning
         Sources                                                                                          Evaluation
                                              Service     National Senior                      and
                               Foundations                                    AmeriCorps                 and Effective
                                             Learning      Service Corps                    Program
                                                                                                           Practices
                                                                                           Integration


 0-National and Community
iervice Act


. 01-National Service Trust                                                       X

102-AmeriCorps Grants                                                              X

(03-Innovation, Assistance,
md Other Activities




LO5-National Civilian
Zommunity Corps

106-Learn and Serve
4merica: K-12 and Higher Ed

107-Program Administration                      X                X                 X            X              X

108-State Commissions                                                              X

109-Points of Light
Foundation (Pass through-           X
Funds)

20-Domestic Volunteer
Service Act (DVSA)

201-Volunteers in Service to
                                                                                   X
America

30-National Senior Service
Corps

301-Retired and Senior
                                                                 X
Volunteer Program

302-Foster Grandparent                                           X
Program

303-Senior Companion                                             X
Program
Financial Reporting Concepts and Objectives
Concepts statements issued by accounting standards setting bodies describe the financial
reporting objectives of users who lack the authority to prescribe the information they
want and must rely on in making rational decisions. Thus, the concepts establish the
objectives that standards setting bodies use in developing accounting and reporting
standards. This study considered the concepts issued by the FASAB and the FASB.
Appendix A provides a detailed description of these concepts.

Table I11 summarizes objectives of financial reporting for Federal entities adopted by the
FASAB and compares the financial reporting requirements of the FASAB and FASB
with these objectives. The purpose of this comparison is to illustrate the extent to which
the non-Federal reporting model currently used by the Corporation satisfies the reporting
objectives for Federal entities.

                                                            Table I11

Comparison of FASAB and FASB Reporting Requirements with FASAB Reporting
                              Objectives
                Reporting
                                                                 Reporting Requirements to Accomplish Objectives
                Obiectives

                 FASAB
                                            I                      FASAB                     I       FASB        I      SFAS 117

Budgetary Integrity

How budgetary resources have been               -Statement of Net Cost
obtained and used and whether their             -Statement of Changes in Net Position            Not addressed       Not addressed
acquisition and use were in accordance          -Statement of Budgetary Resources
with the legal authorization;

                                                -Balance Sheet
The status of          resources; and                                                            Not addressed       Not addressed
                                                -statement
                                                       of Budgetary Resources
How information on the use of budgetary
resources relates to information on the
costs of program operations and whether         -Statement of Financing
information on the status of budgetary
resources is consistent with other
accounting information on assets and
liabilities.

Operating Performance

Costs of providing specific programs and        -Statement of Net Cost                                               Statement of
                                                                                                 Not Addressed
activities and the composition of, and          -Statement of Changes in Net Position                                Activities
changes in, these costs;

Efforts and accomplishments associated          -Statement of Program Performance Measures       Not Addressed       Not Addressed
with federal programs and the changes
over time and in relation to costs; and

Efficiency and effectiveness of the             -Statement of Net Cost                                               Statement of
                                                                                                 Not Addressed
government's management of its assets and       -Statement of Changes in Net Position                                Activities
liabilities.
                                                   Table I11 (Continued)
                                                                                                                                         --   -



Stewardship
                                             I                                                      I                   I
Whether the government's financial               -Balance Sheet                                         Statement of        Statement of
position improved or deteriorated over the       -Required Supplementary Stewardship                    Financial           Financial Position
period;                                           Information                                           Position


Whether future budgetary resources will          -Balance Sheet                                         Statement of
                                                                                                                            Statement of
likely be sufficient to sustain public           -Required Supplementary Stewardship                    Financial
                                                                                                                            Financial Position
services and to meet obligations as they          Information                                           Position
come due; and

Whether government operations have               -Balance Sheet                                         Statement of
                                                                                                                            Statement of
contributed to the nation's current and          -Required Supplementary Stewardship                    Financial
                                                  Information                                                               Financial Position
future well-being.                                                                                      Position


Systems and Control

Transactions are executed in accordance          Not addressed by financial statements per se.
with budgetary and financial laws and            However, CNS issues a Report on Management
other requirements, consistent with the          Controls prepared in a manner consistent with
purposes authorized, and recorded in             the Federal Manager's Financial Integrity Act,         Not addressed       Not addressed by
accordance with Federal accounting               pursuant to the provisions of the Government           by financial        financial
standards; assets are properly safeguarded       Corporation Control Act, and the Office of             statements          statements per se
to deter fraud, waste, and abuse; and            Inspector General reports on internal control in       per se
performance measurement information is           the auditor's report on the Corporation's
adequately supported.                            financial statements. Both of these reports are
                                                 included in the Corporation's Annual Report.



Objectives of the Chief Financial Officers Act of 1990
In addition to the foregoing comparative analysis, KPMG reviewed the Chief Financial
Officers Act of 1990 (CFOs Act) to obtain an understanding of the purpose of the
legislation that led to the creation of the various aspects of the federal financial
management improvement effort, including the current federal accounting standards
setting structure. The stated purpose of the CFOs Act relevant to this evaluation is the
production of complete, reliable, timely, and consistent financial information for use by
the Executive Branch of the Government and Congress in financing, managing, and
evaluating federal programs.

The FASAB considered the objectives of the CFOs Act in developing the conceptual
framework for Federal financial reporting and Federal accounting standards.
Summary Analysis and Recommendation
Relevance of the FASB model to CNS. Historically, the CNS has followed the
accounting and reporting standards issued by the FASB for business-type organizations.
As demonstrated by the information in Table 111, the business-type reporting model does
not satis@ fully the objectives of Federal financial reporting. Specifically, it does not
provide information needed to assess the budgetary integrity and operating performance
objectives. As described in Table I11 and Appendix A, these objectives provide that
Federal financial reporting should assist in assessing budgetary integrity and operating
performance.

The budgetary integrity objective pertains in part to providing information about how
budgetary resources have been obtained and used; the status of budgetary resources; how
information on the use of budgetary resources relates to information on the costs of
program operations; and whether information on the status of budgetary resources is
consistent with other accounting information on assets and liabilities.

The operating performance objective pertains to providing information about the costs of
providing specific programs and activities and the composition of, and changes in, these
costs; efforts and accomplishments associated with federal programs and the changes
over time and in relation to costs; and efficiency and effectiveness of the government's
management of its assets and liabilities.

The FASB business type model focuses on economic resources, obligations (liabilities),
and owner's equity. Under this model, operating performance is measured in terms of
earnings and its components. The model is designed to provide investors and creditors
with earnings information useful in assessing the prospects for enterprise cash flows.
Earnings information is commonly the focus for assessing management's stewardship or
accountability.

The CNS is funded entirely by Congressional appropriations.' Operating performance is
not measured in terms of earnings but in terms of program costs compared with program
outputs and outcomes. This is illustrated in part through CNS's Fiscal 1999 annual
performance report2 Accordingly, the FASB model is not designed to and does not
address fully the objectives of financial reporting for Federal agencies.

Relevance of the SFAS Number 117 Model to CNS. The SFAS 117 model, also
described in Appendix A, applies to not-for-profit organizations. It is designed to meet
the unique reporting objectives of these organizations. The model focuses on programs.
The information provided in the Statement of Activities prescribed by SFAS 117 is


' The National Service Trust, which provides educational awards to participants who successfidly complete
a term of service in one of the three branches of AmeriCorps, earns interest on balances held by the U.S.
Treasury. Interest earnings are restricted entirely to the funding of educational awards and interest
forebearance and payments on qualifying student loans on behalf of qualifying members.
* Fiscal 1999 Annual Performance Report, Corporation for National Service, March 31, 2000.
intended to help users (1) evaluate the organization's performance during a period, (2)
assess the organization's service efforts, and (3) assess how an organization's managers
have discharged their stewardship responsibilities and other aspects of their performance.
The objectives of this Statement are more closely aligned with the objectives of the
Statement of Net Costs under the Federal model. However, the CNS has not chosen to
follow the provisions of SFAS 117.

The SFAS 117 reporting model does not provide for reporting on program performance
in relation to the costs of program operations, albeit such a presentation could be
presented in conjunction with the Statement of Activities. It is noteworthy that FASB
Statement of Financial Accounting Concepts No. 4, paragraph 53, provides that reporting
on service accomplishments may enhance significantly the value of information on
service efforts. However, the SFAS 117 model does not provide for reporting on
program accomplishments.

Finally, the SFAS 117 model does not address the budgetary integrity objective. This is a
critical objective for Federal agencies funded by appropriations. The financial statements
designed to satisfy this objective are the Statements of Budgetary Resources and
Financing. The Statement of Budgetary Resources provides information on the status of
budgetary resources, critical to a confirmation of the accuracy of budget information
reported to oversight organizations. The Statement of Financing is critical to
understanding the relationship between the accrual based information presented in the
statements of net costs and changes in net position and the budgetary based information
presented in the statement of budgetary resources.

Relevance of the Federal Reporting Model. The Federal financial reporting model is
designed to satisfy all of the objectives of Federal financial reporting, except for the
internal control ~bjective.~  It provides information necessary for assessing budgetary
integrity, operating performance, and stewardship. The Statements of Budgetary
Resources and Financing are specifically designed to address the budgetary integrity
objective. The Statements of Net Cost and Changes in Net Position are designed to
address the operating performance objective from an input perspective and the Statement
of Program Performance Measures is designed to assist in reporting on program
performance from an output and outcome perspective.

Conclusion
The CNS is in substance a Federal agency by virtue of its funding source, appropriated
funds. The business-reporting model historically followed by the CNS does not provide
the information necessary to fully satisfy Federal financial reporting objectives and the
objectives of the CFOs Act of 1990. The not-for-profit organization model more closely
mirrors the Federal model in terms of reporting on operating performance from a

  Financial reporting alone does not provide information to satisfy the internal control objective. However,
the Corporation reports on management controls in its annual report and the Inspector General reports on
internal controls in the auditor's report on the Corporation's financial statements.
financial perspective. However, it has several major deficits: it does not provide for the
reporting of critical budgetary information and it does not provide for reporting on
program performance in terms of outputs and outcomes. Accordingly, the CNS should
consider adopting the Federal reporting model.

The Corporation has indicated that it will consider disclosing in the Notes to the Financial
Statements the relevant information provided for by the Federal accounting concepts and
standards to achieve Federal financial reporting objectives. During its deliberations on
this analysis and the resulting recommendations, the Corporation should consider the
needs of financial statement users for information relevant to financing, managing, and
evaluating Federal programs.
                                                                               Appendix A

     Description of Relevant Concepts Statements and Non-Federal
                   Financial Reporting Requirements

Federal Accounting Standards Advisory Board
FASAB Statement of Federal Financial Accounting Concepts (SFFAC) Number 1,
"Objectives of Federal Financial Reporting"

SFFAC Number 1 includes four major categories of reporting objectives - budgetary
integrity, operating performance, stewardship, and systems and controls. Each category
has sub-categories that more hlly describe the objective. The categories and related sub-
categories follow.

Budgetary Integrity

Federal financial reporting should assist in fulfilling the government's duty to be publicly
accountable for monies raised through taxes and other means and for their expenditure in
accordance with the appropriations laws that establish the government's budget for a
particular fiscal year and related laws and regulations. Specifically, federal financial
reporting should provide information that helps the reader to determine:

       how budgetary resources have been obtained and used and whether their
       acquisition and use were in accordance with the legal authorization;

       the status of budgetary resources; and

       how information on the use of budgetary resources relates to information on the
       costs of program operations and whether information on the status of budgetary
       resources is consistent with other accounting information on assets and liabilities.

Operating Performance

Federal financial reporting should assist report users in evaluating the service efforts,
costs, and accomplishments of the reporting entity; the manner in which these efforts and
accomplishments have been financed; and the management of the entity's assets and
liabilities. Specifically, federal financial reporting should provide information that helps
the reader to determine the:

        costs of providing specific programs and activities and the composition of, and
        changes in, these costs;

        efforts and accomplishments associated with federal programs and the changes
        over time and in relation to costs; and
       efficiency and effectiveness of the government's management of its assets and
       liabilities.

Stewardship

Federal financial reporting should assist report users in assessing the impact on the
country of the government's operations and investments for the period and how, as a
result, the government's and the nation's financial conditions have changed and may
change in the future. Specifically, Federal financial reporting should provide information
that helps the reader to determine:

       whether the government's financial position improved or deteriorated over the
       period;

       whether future budgetary resources will likely be sufficient to sustain public
       services and to meet obligations as they come due; and

       whether government operations have contributed to the nation's current and future
       well being.

Systems And Control

Federal financial reporting should assist report users in understanding whether financial
management systems and internal accounting and administrative controls are adequate to
ensure that:

       transactions are executed in accordance with budgetary and financial laws and
       other requirements, consistent with the purposes authorized, and recorded in
       accordance with Federal accounting standards;

       assets are properly safeguarded to deter fraud, waste, and abuse; and

       performance measurement information is adequately supported.

FASAB Statement of Federal Financial Accounting Concepts (SFFAC) Number 2,
"Entity and Display"

SFFAC Number 2 provides that [FederaT]financial statements represent the principal
means of communicating accounting information about an entity's resources, obligations,
revenues, costs, etc. to those outside the entity. Emphasis added. This Statement also
provides model financial reports designed to provide information that supports the
objectives of Federal financial reporting. SFFAC Number 2 provides that [Federal]
financial statements should include:
       Management Discussion and Analysis, which is designed to summarize and
       explain the most significant aspects of the entity's performance and its financial
       affairs.

       Balance Sheet, which is designed to report on the operating assets and liabilities
       related to the delivery of goods and services by government reporting entities.

       Statement of Net Costs, which is designed to report the gross and net costs of
       providing government goods, services, and benefits and will help in assessing the
       cost of service efforts and accomplishments.

       Statement of Changes in Financial Position, which is designed to provide
       information on the changes in financial position from year to year and the causes
       of the changes.

       Statement of Custodial Activities, which is designed to report, for those entities
       whose primary mission is collecting taxes or other revenues, the sources and
       disposition of amounts collected and collectible.

   0   Statement of Budgetary Resources, which is designed to present information
       related to budgetary resources made available, the status of budgetary resources,
       and outlays.

       Statement of Program Performance Measures, which is designated to present
       outputs and outcomes for each of the major programs operated by the reporting
       entity.

       Statement of Financing (added by SFFAS Number 7), which is designed to
       explain the relationship of budgetary obligations to costs recorded in the financial
       statements.

       Required Supplementary Stewardship Information

FASAB Statement of Federal Financial Accounting Standards Number 4,
"Managerial Cost Accounting Concepts and Standards for the Federal
Government"

Managerial Cost Accounting Concepts in SFFAS Number 4 provide that managerial cost
accounting should be a fundamental part of a financial management system and, to the
extent practicable, should be integrated with other parts of the system. Managerial
costing should use a basis of accounting, recognition, and measurement appropriate for
the intended purpose. Cost information developed for different purposes should be
drawn from a common data source, and output reports should be reconcilable to each
other.

SFFAS Number 4 defines the fundamental elements of managerial cost accounting as:
       accumulating and reporting the costs of activities on a regular basis for
       management information purposes;

       establishing responsibility segments to match costs with outputs;

       determining the full costs of government goods and services;

       recognizing the costs of goods and services received from other federal entities;
       and

       using appropriate costing methodologies to accumulate and assign costs to
       outputs.

Financial Accounting Standards Board
FASB Concepts Statement Number 1, "Objectives of Financial Reporting by
Business Enterprises"

The FASB's Concepts Statement Number 1 establishes three broad reporting objectives
for business enterprises. These objectives call for information that is useful in: (1)
making investment and credit decisions, (2) assessing cash flows, and (3) understanding
an enterprise's resources, claims to those resources, and changes in them. In order to
meet these objectives, this concepts statement indicates that financial reporting should
provide information:

        that is useful to present and potential investors and creditors as well as other
        users in making rational investment, credit, and similar decisions.

        to help present and potential investors and creditors as well as other users in
        assessing the amounts, timing, and uncertainty of prospective cash receipts from
        dividends or interest and the proceeds from the sale, redemption, or maturity of
        securities or loans.

        about the economic resources of an enterprise, the claims to those resources
        (obligations of the enterprise to transfer resources to other entities and owners'
        equity), and the effects of transactions, events, and circumstances that change
        resources and claims to those resources.

        about an enterprise's economic resources, obligations, and owners' equity.

        about an enterprise's financial performance during a period.

        about how an enterprise obtains and spends cash, about its borrowing and
        repayment of borrowing, about its capital transactions, including cash dividends
        and other distributions of enterprise resources to owners, and about other factors
        that may affect an enterprise's liquidity or solvency.
        about how management of an enterprise has discharged its stewardship
        responsibility to owners (stockholders) for the use of enterprise resources
        entrusted to it.

        that is useful to managers and directors in making decisions in the interests of
        owners.

FASB Concepts Statement Number 4, "Objectives of Financial Reporting by
Nonbusiness Organizations"

The FASB's Concepts Statement Number 4 establishes four broad objectives. These
objectives call for information that is useful in: (1) making resource allocation decisions,
(2) assessing services and ability to provide services, (3) assessing management
stewardship and performance, and (4) understanding an organization's economic
resources, obligations, net resources, and changes in them.

This concepts statement indicates that financial reporting by non-business organizations
should provide information:

        that is useful to present and potential resource providers and other users in
        making rational decisions about the allocation of resources to those
        organizations.

        to help present and potential resource providers and other users in assessing the
        services that a non-business organization provides and its ability to continue to
        provide those services.

        that is useful to present and potential resource providers and other users in
        assessing how managers of a non-business organization have discharged their
        stewardship responsibilities and about other aspects of their performance.

        about the economic resources, obligations, and net resources of an organization
        and the effects of transactions, events, and circumstances that change resources
        and interests in those resources.

        about an organization's economic resources, obligations, and net resources.

        about the performance of an organization during a period. Periodic measurement
        of the changes in the amount and nature of the net resources of a non-business
        organization and information about the service efforts and accomplishments of an
        organization together represent the information most useful in assessing its
        performance.

        about the amounts and kinds of inflows and outflows of resources during a
        period.
       about the relation between inflows and outflows of resources during a period.
       Those who provide resources to a non-business organization and others want to
       know how and why net resources changed during a period.

       about the service efforts of a non-business organization.

       about the service accomplishments of a non-business organization.

       about how an organization obtains and spends cash or other liquid resources,
       about its borrowing and repayment of borrowing, and about other factors that
       may affect its liquidity.

An important point made by both of the foregoing FASB concepts statements is that
financial reporting should include explanations and interpretations to help users
understand financial information provided.

Statement of Financial Accounting Standards (SFAS) Number 117, Financial
Statements of Not-for-Profit Organizations (SFAS 117)

SFAS 117, an accounting and reporting standard rather than a concept statement, requires
three financial statements: a Statement of Financial Position, a Statement of Activities,
and a Statement of Cash Flows. The Statement indicates that the primary purpose of the
Statement of Financial Position is to provide relevant information about an organization's
assets, liabilities, and net assets.

The Statement states that the primary purpose of the Statement of Activities is to provide
relevant information about the effects of transactions and other events and circumstances
that change the amount and nature of net assets.. . and how the organization's resources
are used in providing various programs or services. The information provided in the
Statement of Activities.. . helps users (1) evaluate the organization's performance during
a period, (2) assess the organization's service efforts, and (3) assess how an
organization's managers have discharged their stewardship responsibilities and other
aspects of their performance.

To help in assessing an organization's service efforts, including the costs of its services
and how it uses resources, the Statement of Activities or notes to financial statements
should provide information about expenses reported by their functional classification
such as major classes of program services and supporting activities. Program services are
the activities that fulfill the purposes for which the organization exists. Supporting
activities are all activities other than program services, for example, general management.

The Statement of Cash Flows is to provide relevant information about the cash receipts
and cash payments of an organization during a period.
                                                             CORPORATION
                                                             FOR NATIONAL
                                                            OSERVICE

MEMORANDUM

Date:               April 23, 2001

To:                 Luise Jordan
                    Inspector General

From:               William L. Anderson
                    Deputy Chief Financial Officer

Subject:            Response to OIG draft report 01-33, Financial Reporting - An Analysis of
                    Alternatives and Recommendation


      The Corporation has reviewed the office of the Inspector General (OIG) draft audit report
01-33, Financial Reporting - An Analysis of Alternatives and Recommendation, prepared by
KPMG. The draft audit report states that the objective of OIG's analysis was to assist the
Corporation in determining the financial reporting standards that it should follow and, after
identifying several alternatives, suggests that the Corporation consider adopting the federal
[FASAB] reporting model. An analysis of the Corporation's reporting requirements is included
as an attachment.

      While neither the CFO Act nor the pronouncements of the FASAB require a government
entity that historically has followed FASB standards to adopt the standards promulgated by the
FASAB,' the Corporation agrees that the federal reporting model provides useful information on
an agency's operations. In fact, the Corporation's recently issued fiscal 2000 Annual Report
includes most, if not all, of the information considered useful under the federal reporting model,
including detailed financial and budgetary information on its operations.

      For example, the current annual report includes a Management Discussion and Analysis
(MD&A) section featuring graphical as well as narrative presentations of financial and program
performance results. The MD&A also includes a distribution of Corporation expenses by
responsibility segment (ArneriCorps, National Senior Service Corps, and Learn and Serve). In
addition, Note 11 to the principal financial statements provides a distribution of grants expense
among the four major grant program areas: Domestic Volunteer Service Act Programs, National
and Community Service Act Programs, Points of Light Foundation, and Domestic Volunteer
Service Act State Pass-Through Grants. The Corporation intends to continue annual
enhancements to its financial reports as deemed relevant, cost effective, and useful to the
financial statement reader.
I
 Except for those listed in OMB Bulletin No. 97-01, which does not include the Corporation. FASAB concepts
and standards permit and encourage the Corporation to continue reporting under FASB standards.



    NATIONAL SERVICE: GETTING THINGS DONE                                l,dl 3c.w jerk Avenue. N . W Washington. D.C. 20525
    ..\wnCo~ b a na d 5 u w h w x a   . .Won,l! SCv1or
                                                     SC~C'IL.C   cC)~   rulrntwne 202-m-5000. website:www.nationabe~ce.org

                                                                    B-1
      It is important to note that prior to the conclusion of fiscal 1997 the Corporation's financial
statements were considered to be unauditable. There were many deficiencies, including a non-
compliant financial system. In September 1999, the Corporation implemented a new financial
management system, which complies with Joint Financial Management Improvement Program
and OMB Circular A- 127, Policies and Standards for Financial Management Systems,
standards. The Corporation's improvements have been deliberate and incremental so as to
ensure a continuous forward progression in its financial management policies, procedures and
systems. Thus, each financial reporting enhancement must include the establishment of an
infrastructure of policies, procedures and systems that can be sustained and further enhanced in
future fiscal years.

       Following its plan for continual enhancement to the financial reporting function the
Corporation will consider voluntary adoption of the FASAB, or federal reporting model in future
fiscal years to the extent authorized by law.
                                                                                      Attachment

Analysis of Corporation Reporting Requirements

      The Corporation was established as "a Government corporation, as defined in section 103
of Title 5." (42 U.S.C. 12651). A federal government corporation is a type of federal agency.
As a federal government corporation, the Corporation must adhere to the Government
Corporation Control Act, 31 U.S.C. $9101 et seq. That Act (Section 9106, Management
reports) requires that the Corporation submit an annual management report to Congress that
"shall include (emphasis added):

   a balance sheet;
   a statement of operations;
   a statement of cash flows;
   a reconciliation to the budget report of the Government corporation, if applicable;
   a statement on internal accounting and administrative control systems by the head of the
   management of the corporation, consistent with the requirements for agency statements on
   internal accounting and administrative control systems under the amendments made by the
   Federal Managers' Financial Integrity Act of 1982 (Public Law 97-255);
   the report resulting from an audit of the financial statements of the corporation conducted
   under section 9 105 of this title; and
   any other comments and information necessary to inform the Congress about the operations
   and financial condition of the corporation."

       Thus, the Corporation is required to prepare a balance sheet (statement of financial
position), a statement of operations (income statement), and a statement of cash flows; and have
the financial statements audited. In order for the auditor to express an unqualified or "clean"
opinion on the financial statements, the financial statements must be prepared in accordance with
generally accepted accounting principles. The very specific reporting requirements denoted
above were amendments to the Government Corporation Control Act contained in the Chief
Financial Oflcers Act (P.L. 101-576, Title 111, $306) designed to bring the two Acts into
agreement.

     The GAAP concept was created by the American Institute of Certified Public Accountants
(AICPA). Rule 203 of the AICPA Code of Professional Conduct provides that an AICPA

       "member shall not (1) express an opinion or state affirmatively that the financial
       statements or other financial data of any entity are presented in conformity with
       generally accepted accounting principles or (2) state that he or she is not aware of
       any material modifications that should be made to such statements or data in order
       for them to be in conformity with generally accepted accounting principles, if
       such statements or data contain any departure from an accounting principle
       promulgated by bodies designated by Council to establish such principles that has
       a material effect on the statements or data taken as a whole."

      The AICPA Council designated the Financial Accounting Standards Board (FASB) as the
standards-setter for the private sector in 1973 and the Governmental Accounting Standards
Board (GASB) as the standards-setter for state and local governments in 1986. Thus, federal
                                                                                       Attachment


corporations were required to prepare and have audited, financial statements prepared in
accordance with FASB standards.

       On October 19, 1999, the Council designated the Federal Accounting Standards Advisory
Board (FASAB) as the Rule 203-designated accounting standards-setter for the federal
government. As a consequence of this action a question arose as to whether Government
corporations had to now prepare financial statements in accordance with FASAB standards in
order that the statements be in accordance with GAAP. However, FASAB recognized that
certain federal entities prepare financial statements in accordance with FASB standards. This
practice developed before FASAB was established and has been widely recognized and prevalent
in the federal government. In SFFAC 2, Entity and Display, 7/78, FASAB speaks to this practice,
specifically stating:

       Some of a reporting entity's components are likely to be required by law or policy
       to prepare and issue financial statements in accordance with accounting standards
       other than those recommended by FASAB and issued by OMB and GAO, e.g.,
       accounting standards issued by the Financial Accounting Standards Board or
       accounting standards established by a regulatory agency. Those components
       should contin ue to issue the required reports (emphasis added).

      The FASAB News newsletter for January-March 2000, as part of a Q and A, stated:
"However, financial statements in accordance with accounting standards published b the FASB
also may be regarded as in accordance with GAAP for those Federal entities that have in the past
issued such financial statements."

      Finally, Section 102 (b) of the CFO Act contains three stated purposes, only the third of
which was paraphrased in the "Objectives of the Chief Financial Officers Act of 1990," section
of the draft audit report. The complete text is as follows:

(b)   Purposes - The purposes of this Act are the following:

      (1) Bring more effective general and financial management practices to the Federal
          Government through statutory provisions which would establish in the Office of
          Management and Budget a Deputy Director for Management, establish an Office of
          Federal Financial Management headed by a Controller, and designate a Chief Financial
          Officer in each executive department and in each major executive agency in the
          Federal Government.

      (2) Provide for improvement, in each agency of the Federal Government, of systems of
          accounting, financial management, and internal controls to assure the issuance of
          reliable financial information and to deter fraud, waste, and abuse of Government
          resources.

      (3) Provide for the production of complete, reliable, timely, and consistent financial
         information for use by the executive branch of the Government and the Congress in the
         financing, management, and evaluation of Federal programs.
                                                                                      Attachment



      In the Act, the first purpose is to establish the Deputy Director for Management and the
Controller of the Officer of Federal Financial Management at the Office of Management and
Budget and a Chief Financial Officer at each major executive agency in the federal government.
The second purpose is to provide for improvement to agency systems of accounting, financial
management and internal controls. The third purpose is to provide for production of complete,
reliable, timely and consistent financial information.

      It is important to note that the CFO Act does not address the need to develop federal
financial accounting principles, nor does it address the need to establish a standard setting
agency within the federal government. Three federal agency heads, who were in office before
the passage of the CFOs Act, recognized these needs and acted independently of the Congress.
As a result of their action, the FASAB was established on October 10, 1990, by a memorandum
of understanding signed by the Director of the Office of Management and Budget, the Secretary
of the Treasury and the Comptroller General of the United States. The CFO Act became a public
law on November 15, 1990, about 35 days after the FASAB was established.

      While the CFO Act does not address federal accounting principals, it does provide at
Section 303(a)3515(c) that,

       The Director of the Office of Management and Budget shall prescribe the form
       and content of the financial statement of executive agencies under this section,
       consistent with applicable accounting principles, standards and requirements.

      It was under the authority of this provision that the Office of Management and Budget
developed the predecessor and current versions of the current Bulletin 97-01, Form and Content
of Agency Financial Statements, that the draft audit report recommends the Corporation follow.
The current version of OMB Bulletin 97-01 includes the format and instructions for six principal
financial statements as well as for a management discussion and analysis, required
supplementary stewardship information, required supplementary information, and other
accompanying information. OMB Bulletin 97-01 explicitly lists the federal entities that must
follow the bulletin; the Corporation is not one of them.
